                                    Closeout for M99040023



        On April 20, 1999, a National Science Foundation (NSF) program officer'
received a plagiarism allegation from an NSF confidential peer reviewer.' The IVSF peer
reviewer provided copies of two nearly identical proposals submitted to NSF and a
foreign funding agency.3 The foreign agency proposal was submitted by a scientist
employed in a foreign country (foreign s ~ b j e c t ) .The
                                                        ~ NSF proposal was submitted by a
scientist employed in the United States (resident ~ubject).~

        A close examination of these proposals confirmed substantial similarities in the
written text, figures, and figure captions. The bibliographies of these proposals contained
several references to joint publications by the two subjects in the past five years.
However, although the NSF proposal identified the foreign subject as a consultant and
requested some consultant fees and foreign travel expenses, this proposal did not refer to
the foreign subject's proposal that had been submitted to the foreign funding agency.
The foreign subject's proposal did not list the resident subject as a cooperating
investigator or reference the resident subject's NSF proposal in several questions
regarding additional funding sources. In addition to the possible plagiarism concerns of
the NSF peer reviewer, after reading these nearly identical proposals, OIG became
concerned about a possible attempt by the subjects to secure duplicate funding for a
single research project.

        In a written response to OIG's request for additional information regarding these
proposals, the resident subject stated that these proposals were a joint effort to secure
funding. According to the resident subject, the NSF FastLane application did not provide
a place "to explain the nature of my collaboration with [the foreign subject] and whether
or not he is applying for funding on the same project." In particular, the resident subject
did not believe that Section G of the NSF application requiring a list of Current and
Pending Support for all Principle Investigators and Senior Personnel applied to the
foreign subject.

        The foreign subject responded by stating that each scientist planned to perform
complimentary experiments and share data via internet. The foreign subject did not list
the resident subject on the foreign agency proposal because no foreign agency funding
would be spent on the resident subject.

        In a subsequent conversation with the resident subject, OIG learned that the
foreign funding agency asked the foreign subject similar questions about the resident
subject's role in the research project. The foreign agency subsequently funded the
foreign subject's proposal.


'   [footnote redacted]
    [footnote redacted]
3
    [footnote redacted]
4   [footnote redacted]
    [footnote redacted]


                          Page 1 of 2                            Closeout for 99-23 (redacted)
                               Closeout for M99040023

        The Current and Pending Support form along with NSF's Grant Proposal Guide
definitions of Principal Investigator and Senior Personnel clearly indicate the resident
subject should have provided a description of the nature of the collaboration with the
foreign subject in the NSF proposal. Accordingly, OIG suggested an immediate
amendment to the NSF proposal discussing the foreign subject's role in the research
project along with a statement about the foreign agency funding.

        The resident subject submitted an amendment to the NSF proposal complete with
a cover letter addressed to the NSF program officer with a cover letter that addressed our
concerns about plagiarism or intellectual theft by acknowledging joint collaboration on a
draft proposal. In response to OIG concerns about a possible attempt to secure duplicate
funding for a single research project, the resident subject attributed the failure to list the
foreign subject on the Current and Pending Support form as the honest mistake of a
young researcher. In addition, the resident subject stated that all NSF funding requested
for the foreign subject would provide salary and travel expenses for the foreign subject's
future visits to the resident subject's laboratory. This NSF funding would not provide
equipment, supplies or student funding for the foreign subject's laboratory. In the NSF
proposal amendment, the resident subject clearly described all future parallel research
projects along with the independent research projects scheduled for each laboratory.

       The cover letter and NSF proposal amendment submitted by the resident subject
address all OIG concerns involving possible plagiarism, intellectual theft or an attempt to
secure duplicate funding for a single research project. Accordingly, this case is closed.




Cc: Integrity, IG




                      Page 2 of 2                                  Closeout for 99-23 (redacted)
